          Agencias Universales S.A.
           Internal Control Report
For the Period January 1, 2005 to May 15, 2005



          National Science Foundation
          Office of Inspector General


                March 22, 2007
               NSF OIG 07-1-009




                                  PKF Witt Mares
                                  10304 Eaton Place, Suite 440
                                  Fairfax, Virginia 22030
                                  Tel: (703) 385-8809
                                  Fax: (703) 385-8890
             XXXXXXXXXXXXXXXXXXXXXXXXXXXXX




XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXxXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                           TABLE OF CONTENTS


                                                                                Page

Executive Summary

      Background ………………………………………………………………………….                                     4

      Objectives, Scope and Methodology ………………………………………………..                       4

      Summary of Findings and Recommendations ………………………………………                      6

      Exit Conference……………………………………………………………………...                                10


Agreed-Upon Procedures Report and Findings and Recommendations

      Independent Accountant’s Report on Applying Agreed-Upon Procedures …………     11

      Findings and Recommendations ………………………………………………….…                          12

Supplementary Information Attachments

      Attachment A – Internal Control Assessment Scope and Methodology ……………      31

      Attachment B – Internal Control Assessment ………………………………………                  34

      Attachment C – List of Interviewees …………………………………………..……                    42

      Attachment D – Response from Agencias Universales S.A. (AGUNSA) ………….       43
EXECUTIVE SUMMARY
                       Agencias Universales S.A. Internal Control Report
                        For the Period January 1, 2005 to May 15, 2005

                                  EXECUTIVE SUMMARY
National Science Foundation
Office of the Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


Background

Raytheon Polar Services Company (RPSC) notified the National Science Foundation (NSF) of a
potentially fraudulent act committed by employees of its subcontractor Agencias Universales
S.A. (AGUNSA), who are responsible for performing NSF ship chandlering duties. Ship
chandlering involves the dockside supply of food, fuel, and equipment to the Research Vessel
(RV) Gould and RV Palmer at Punta Arenas, Chile. The fraudulent act was discovered in 2003
and involved two AGUNSA employees at the Punta Arenas office, who were later charged in a
Chilean court for embezzling funds, using a vendor invoice lapping scheme through which
payments intended for AGUNSA vendors were diverted for the embezzlers’ private use.

AGUNSA is a Chilean company with annual sales of XXX million in the maritime port services
sector in Latin America, including a total of 39 offices distributed in 10 countries: Perú, Ecuador,
Colombia, Argentina, Paraguay, Venezuela, USA (Miami), Jamaica, Mexico and Chile.
AGUNSA is considered to be a large company in Chile, and has begun to play an important role
in the international transport sector, providing such services as cargo handling, bunkering, tug
services, serving as a logistics and stevedoring agent, and airport concessions. Overall, the
Company employs approximately XXXX people.

Although it is a Chilean company, AGUNSA, as a subcontractor on a NSF contract, is required
to follow all applicable contract requirements in the Federal Acquisition Regulation (FAR). The
AGUNSA subcontract is approximately $2 million annually and expected to continue through
Fiscal Year 2009.


Objectives, Scope and Methodo1ogy

Our objectives were to determine whether AGUNSA’s internal control systems in its accounting
and billing processes subsequent to the embezzlement scheme are adequate to properly
accumulate, track and monitor its costs and billings under the RPSC subcontract in compliance
with NSF and Federal requirements. Our objectives were also to identify matters concerning
instances of noncompliance with laws, regulations, and the provisions of the subcontract between
AGUNSA and RPSC. To accomplish these objectives, we compared AGUNSA’s internal
control over the accumulation, tracking, monitoring, and billing of subcontract costs to RPSC
against the internal control guidance published by the Committee of Sponsoring Organizations of
the Treadway Commission (COSO), the standard for internal control for the U.S. Federal
Government and the U.S. based Public Company Accounting Oversight Board, and documented
our findings. COSO provides a common definition of internal controls and guides in the



                                               -4-
                          Agencias Universales S.A. Internal Control Report
                           For the Period January 1, 2005 to May 15, 2005

creation, assessment, and improvement of an organization’s internal control system.1 We also
reviewed the circumstances surrounding the embezzlement which we reported on in a separate
report,2 which also provides recommendations to prevent future recurrence.

This agreed-upon procedures engagement was conducted in accordance with attestation
standards established by the American Institute of Certified Public Accountants and the
standards applicable to attestation engagements contained in Government Auditing Standards
(2003 Revision), issued by the Comptroller General of the United States.

We were not engaged to and did not conduct an examination, the objective of which would be
the expression of an opinion on AGUNSA’s internal controls. Accordingly, we do not express
such an opinion. If we had performed the additional procedures necessary for an examination
level review, other matters might have come to our attention that would have been reported to
you.

At AGUNSA’s central office in Valparaiso, we concentrated our procedures on an analysis of
the control environment, risk assessment, information and communication systems, and
monitoring activities. At AGUNSA’s Punta Arenas office, the site of the embezzlement, we
concentrated our procedures on control activities.

To achieve the audit objectives, we inspected the Company’s financial management, human
resources, and financial accounting system procedures. We also inspected the internal
management financial reports, financial audit reports, contract documentation, annual financial
statements, job descriptions, and all other relevant background documentation made available to
us, including the AGUNSA commissioned Guerra Raby CPA Audit Report on the extent of the
embezzlement and the Chilean Police’s Economic Crime Unit Report. We also interviewed
relevant management officials and staff as part of the overall Internal Control Assessment. (See
Attachment B - Internal Control Assessment and Attachment C - List of Interviewees)

In addition, we analyzed transactions and costs incurred by AGUNSA under its RPSC
subcontract in 2005, for compliance with its corrective actions implemented to address the
embezzlement. We also assessed AGUNSA’s procedures to account for and bill RPSC for
subcontractor costs, including compliance with NSF and Federal requirements. We conducted
our audit work from January 1, 2005 to May 15, 2005 at the AGUNSA main office located in
Valparaiso, Chile.




1
 See www.theiia.org for more information concerning COSO.
2
 See NSF OIG Report titled Agencias Universales S.A. Embezzlement Report for the period January 1, 2002 to
June 30, 2003, for further discussion of the embezzlement.
                                                     -5-
                               Agencias Universales S.A. Internal Control Report
                                For the Period January 1, 2005 to May 15, 2005


Summary of Findings and Recommendations

Our review of invoices for the period January 1, 2002 through June 30, 2003 disclosed that the
embezzlement loss to AGUNSA totaled approximately $157,0003 of which approximately
$7,200 related to AGUNSA’s subcontract with RPSC. AGUNSA, after discovery of the
embezzlement, held itself accountable for the embezzlement and paid all affected vendors.
Nevertheless, judgmental sampling conducted during the audit, but subsequent to the
embezzlement, identified up to approximately $616,000 of potentially lapped (delayed)
payments to vendors servicing the RPSC contract. AGUNSA had no other U.S. government
contracts. In general, AGUNSA’s lack of management oversight, lack of internal control over the
accounting and vendor payment process, failure to enforce its own policies and procedures, and
noncompliance with the RPSC subcontract terms enabled the embezzlers to perpetrate the vendor
invoice lapping scheme. Properly designed internal controls that are monitored and enforced
could have prevented, or allowed, earlier detection of the embezzlement.

We also noted some continuing internal control deficiencies and compliance violations, despite
corrective actions implemented after the embezzlement by AGUNSA management. AGUNSA
lacks an overall internal control framework and methodology (COSO Framework) to oversee and
manage its financial accounting and reporting operations with respect to its RPSC contract.
Furthermore, AGUNSA has not fully implemented its corrective action plan to correct the
internal control deficiencies surrounding the embezzlement. As such, these deficiencies could
have an impact on AGUNSA’s ability to effectively administer its ongoing financial activities
under the RPSC subcontract.

The following is a brief description of the continuing internal control and compliance findings
that could allow the embezzlement to reoccur and which continue to affect AGUNSA’s internal
controls over its RPSC contract.

       1. Inadequate Internal Controls For a Large Corporation: AGUNSA lacks a COSO
          methodology framework of internal control over its RPSC subcontract commensurate
          with AGUNSA’s current operating capacity to manage and oversee its financial
          accounting, billing, invoicing, and reporting operations at its Puntas Arenas office. It
          appears that development and upgrades in business systems and controls did not keep
          pace with the extensive corporate growth AGUNSA has experienced and could have
          contributed to the lax monitoring of vendor payments on the RPSC subcontract
          associated with the embezzlement.

       2. Federal Acquisition Regulation Inexperience Leads to Regulatory Violations:
          AGUNSA did not comply with the Federal Acquisition Regulations (FAR). The terms
          and conditions of the RPSC subcontract requires AGUNSA to follow certain FAR
          provisions including those related to vendor invoice terms and payment to vendors before
          requesting payment from RPSC. AGUNSA did not pay the vendor’s invoices within 30
          days of receipt as required by the FAR. AGUNSA submitted invoices to RPSC for
          reimbursement prior to making payments to its own vendors which is prohibited by the
          FAR and the RPSC subcontract. As a result, AGUNSA could have received
          reimbursement for costs that it had not yet paid. AGUNSA must establish, implement
3
    All monetary amounts identified in this report are stated in U.S. dollars unless otherwise indicated.
                                                           -6-
                   Agencias Universales S.A. Internal Control Report
                    For the Period January 1, 2005 to May 15, 2005

   and enforce policies and procedures that will meet the minimum requirements contained
   in the FAR for a subcontractor performing for a U.S. Government contractor. In
   addition, periodic reviews by AGUNSA management of its policies and operating
   procedures will ensure AGUNSA’s higher-level management, RPSC, and NSF that it has
   correctly recorded, paid, and billed subcontract costs. Management reviews should also
   ensure that AGUNSA’s policies and procedures remain current and consistent with its
   accounting practices and its applicable FAR and RPSC contractual requirements.

3. Inadequate Board of Directors Involvement in Internal Controls: The AGUNSA
   Board of Directors agreed on July 30, 2003, to systematize and revitalize internal audit
   procedures but it does not appear that the Board has monitored this process; ensured that
   the AGUNSA Internal Control Unit performed a visit to the Punta Arenas Office as
   required in AGUNSA’s procedures; or followed-up to ensure the adequacy and
   implementation of the AGUNSA General Manager’s corrective action plan.

4. Inadequate Segregation of Employee Duties: AGUNSA lacks proper segregation of
   employee duties by continuing to concentrate a number of payment processing duties in
   the current XXXXXXXXXXXXXXXXX position that are not significantly different than
   the duties of the previous XXXXXXXXXXXXXXXXXXXXX (one of the embezzlers).
   Therefore, this continuing concentration of duties in a single individual could allow
   future embezzlements to occur. The XXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX. The XXXXXXXX
   was responsible for both the XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX,
   creating an internal control weakness between the duties of accounting and the check
   XXXXXX functions. After the embezzlement was discovered, several vendor invoice
   payment procedures changed including the implementation of a mandatory vacation
   policy. However, those changes did not address the continued concentration of duties
   and unrestricted accounting system access in the XXXXXXXXXX position. Poor
   segregation of duties directly impacts AGUNSA’s ability to accumulate, track, monitor,
   and bill subcontract costs to RPSC and limit future reoccurrences of an embezzlement.

5. Inadequate Development and Implementation of Financial and Administrative Policies
   and Procedures Results in Inadequate Internal Controls: There are policies and
   procedures for processing invoice payments and for other financial and administrative
   activities; however, they are either not complete, not well communicated, not complied
   with, or the employees are not trained in them. AGUNSA implemented corrective
   actions following the discovery of the embezzlement; however, it has not adequately
   documented those corrective actions (i.e. internal controls) in written policies and
   procedures; carried out any tests of their effectiveness; or analyzed the possibility of any
   additional financial risks associated with its RPSC subcontract, for which appropriate
   controls should be implemented.

6. Employees Insufficiently Trained About Internal Controls: Subsequent to the
   embezzlement, AGUNSA did not conduct sufficient employee training on financial and
   administrative procedures, internal controls, ethical matters or fraud prevention. In
   particular, AGUNSA’s employee-training program does not cover identifying and
   monitoring restricted funds and unallowable costs. Inadequately trained employees
   directly impact AGUNSA’s ability to accumulate, track, monitor, and bill subcontract
                                           -7-
                      Agencias Universales S.A. Internal Control Report
                       For the Period January 1, 2005 to May 15, 2005

      costs to RPSC in compliance with NSF and Federal requirements. AGUNSA’s lack of a
      formal approach to anti-fraud and internal control related training directly increases the
      risk of a future embezzlement.

   7. Poorly Defined Employee Duties and Performance Evaluations: AGUNSA lacks both
      written formal job descriptions for its accounting and billing staff, and a system of
      regular performance evaluations. In order for AGUNSA’s policies and procedures to
      effectively safeguard company assets and maintain efficient operations, employee duties
      must be clearly defined and employee performance of those duties evaluated and
      documented to identify opportunities for improvement. Proper segregation of duties
      among employees cannot be achieved without first clearly delineating the employee’s
      duties in, for example, the vendor invoice payment process. Unclear and poorly defined
      employee duties make it possible for employees to subvert the vendor invoice payment
      process for their own gain. The oversight provided by requiring managers to evaluate
      employee performance by clearly defined duties, is a further safeguard that promotes the
      effectiveness of internal controls incorporated in the design of the vendor invoice
      payment system.

   8. Need for Evaluation of Employee Assignments and/or Retraining: The XXXXXXXX
      at the Punta Arenas office remains in his current position despite not exercising adequate
      due diligence in co-signing checks associated with the embezzlement. Failure to
      adequately review the checks for compliance with AGUNSA’s company policy, before
      co-signing checks, circumvented the internal control and indirectly benefited the
      embezzlers, allowing them to convert AGUNSA funds to their own private use.

   9. RPSC May Have Paid for Services Not Received: AGUNSA allowed for purchasing
      goods and services without adequate RPSC Marine Project Coordinator documentation,
      authorization and approval. In addition, there was limited documentation evidencing
      delivery of goods or services to RPSC. Without adequate invoice documentation and
      proof of delivery there is a risk that payments could be made for goods or services that
      were not ordered and/or delivered.

We recommend that NSF’s Director of the Division of Acquisition and Cooperative Support
ensure that RPSC directs AGUNSA to:

   1. Adopt a COSO methodology to internal control over the RPSC subcontract, which would
      serve as a guide for AGUNSA management in developing, implementing, and overseeing
      the important elements of internal control such as the control environment, risk
      assessment, control activities, information and communication system, and monitoring.

   2. Obtain an understanding of the FAR provisions applicable to its RPSC subcontract and
      communicate these requirements both verbally and in writing to appropriate management
      and accounting personnel. AGUNSA should specifically design procedures to monitor
      AGUNSA’s compliance with these provisions using the COSO framework as a guide.

   3. Ensure that the AGUNSA Board of Directors make certain that the proposed corrective
      actions relating to compliance and control monitoring by AGUNSA’s Internal Control
      Unit are implemented and followed. We also recommend that NSF ensure that RPSC
      directs AGUNSA to consider having the Internal Controls Unit report directly to an Audit
                                             -8-
                    Agencias Universales S.A. Internal Control Report
                     For the Period January 1, 2005 to May 15, 2005

   Committee of the AGUNSA Board, or similar governing body. The Unit should follow
   standard internal audit practices such as those promulgated by the Institute of Internal
   Auditors (IIA), and perform semiannual internal audits of its various branches as stated in
   its corporate policies and procedures.

4. Revise Company policies as necessary to segregate the duties of the XXXXXXXXX such
   that processing, recording, and payment of vendor invoices are segregated among
   different staff to perform. AGUNSA should ensure that vendor checks are properly
   prepared, documentation properly supports each payment, accounting records are updated
   properly, and invoices are paid promptly in accordance with AGUNSA policies and
   procedures and the RPSC subcontract. All cash flow activity, including checks, invoices
   paid, and accounting records should be reconciled and posted daily. AGUNSA
   management should also monitor compliance with all Company policies and procedures,
   especially with regard to the vendor payment process and help mitigate fraud by
   collusion by monitoring compliance with its new vacation policy. The new vacation
   policy currently being communicated verbally should also be incorporated into the
   Human Resources manual. AGUNSA management should perform unannounced spot
   checks to ensure compliance with company policies and procedures.

5. Develop a comprehensive set of financial and administrative procedures with regard to
   the RPSC subcontract based on a control risk analysis, and communicate and implement
   these procedures in the Punta Arenas office. Additionally, AGUNSA should specifically
   design internal control procedures to monitor compliance with the FAR as well as
   financial and administrative procedures mentioned above, using the COSO framework as
   a guide. AGUNSA should also train all financial and administrative personnel on
   Company policies and procedures and periodically evaluate the effectiveness of its
   controls and analyze the risks associated with its operations, so that appropriate controls
   can be effectively designed (or modified) and monitored with regard to the RPSC
   subcontract.

6. Provide employee training on financial and administrative procedures with particular
   focus on risks and associated controls. We also recommend that AGUNSA provide
   adequate training on ethical behavior, resolution of conflict of interests, internal controls,
   and anti-fraud procedures. AGUNSA should establish more detailed ethical and anti-
   fraud procedures as well as periodic reviews of these procedures. Additionally,
   AGUNSA and RPSC should conduct joint working/training sessions with RPSC on
   subcontract management, both in administrative and financial matters.

7. Define personnel responsibilities and conduct formal employee performance evaluations
   for all staff involved in the RPSC subcontract. In addition, AGUNSA should provide
   training that supports and relates directly to employee job duties and responsibilities of
   staff working on and monitoring the RPSC subcontract.

8. Review the Punta Arenas XXXXXXXXXX indirect involvement in the embezzlement in
   order to evaluate whether the XXXXXXXXXXX has had the retraining necessary to
   effectively discharge his control duties and continue in his current assignment. Obtain
   details of AGUNSA’s assessment of other individual’s direct or indirect involvement in
   the embezzlement. Ensure all Punta Arenas AGUNSA employees with check signature

                                            -9-
                       Agencias Universales S.A. Internal Control Report
                        For the Period January 1, 2005 to May 15, 2005

       authority understand fully and properly execute their responsibilities in disbursing and
       safeguarding company funds.

   9. Have internal control procedures in place to follow subcontract procedures to obtain
      proper documentation, authorization, and approval of invoices for submission to RPSC.
      These procedures should require that AGUNSA obtain authorization and supporting
      documentation from the RPSC Marine Project Coordinator in Punta Arenas before
      invoices are submitted to RPSC to ensure that the goods and services were delivered and
      benefited the RPSC subcontract activities.

AGUNSA’s response to the audit report, dated March 15, 2007, indicated that in general, they
agreed with the findings and recommendations in this report, except finding nos. 3 and 9. In
recommendation no. 3, AGUNSA stated that there was no further need for the Board of
Director’s involvement because corrective actions were sufficient and in recommendation no. 9,
AGUNSA stated that its invoices now have the RPSC Marine Project Coordinator approval on
them. We considered these statements and indicated that ‘monitoring’ is a key component of
internal control and that our testing performed indicated that RPSC Marine Project Coordinator
approvals were missing.

For a complete discussion of the audit findings, refer to the “Independent Accountant's Report on
Applying Agreed-Upon Procedures at Agencias Universales S.A. Internal Control Report." The
findings in this report should not be closed until NSF has determined that all the
recommendations have been adequately addressed and the proposed corrective actions have been
satisfactorily implemented.


Exit Conference

We attended an onsite exit conference with AGUNSA in December 2005. Mr. Jorge Martinez
(PKF Witt Mares) met with XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXX for five hours, to present in detail, and obtain
comment on, our preliminary findings. We were informed that they agreed with some of the
findings and had various levels of disagreement with certain other findings and would like the
opportunity to respond in writing.

We presented AGUNSA with a draft report on March 2nd, 2007 to which they responded in
writing on March 15th, 2007. Certain specific comments can be seen throughout this report under
the caption “Management’s comments:” and AGUNSA's general response has been included in
its entirety in Attachment D to this report.




                                             - 10 -
INDEPENDENT ACCOUNTANT’S REPORT ON
APPLYING AGREED-UPON PROCEDURES AT
      AGENCIAS UNIVERSALES S.A.

     INTERNAL CONTROL REPORT
                      INDEPENDENT ACCOUNTANT’S REPORT
                     ON APPLYING AGREED-UPON PROCEDURES
National Science Foundation
Office of the Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

To the National Science Foundation Office of the Inspector General

We have performed the procedures identified below for the period January 1, 2005 to May 15,
2005, which were agreed to by the National Science Foundation (NSF) Office of Inspector
General (OIG) for their purpose of assessing whether AGUNSA’s internal control has the ability
to accumulate, track, monitor, and bill subcontract costs to Raytheon Polar Services Company
(RPSC) in compliance with NSF and Federal requirements. The sufficiency of these procedures
is solely the responsibility of the NSF OIG. Consequently, we make no representation regarding
questions of legal interpretation or the sufficiency of the procedures described below either for
the purpose for which this report has been requested or for any other purpose. Performance of
the procedures by PKF Witt Mares should not supplant any additional inquiries or procedures
NSF OIG would undertake in consideration of AGUNSA’s internal control with regard to the
RPSC subcontract. This agreed-upon procedures engagement was conducted in accordance with
attestation standards established by the American Institute of Certified Public Accountants and
the standards applicable to attestation engagements contained in Government Auditing Standards
(June 2003 revision), issued by the Comptroller General of the United States.

At the request of the NSF OIG, we compared AGUNSA’s internal control over the
accumulation, tracking, monitoring, and billing of subcontract costs to RPSC against the internal
control guidance published by the Committee of Sponsoring Organizations of the Treadway
Commission (COSO), the standard for internal control for the U.S. Federal Government, and
documented our findings. Refer to Attachment A for the detailed Internal Control Assessment
Scope and Methodology.

We were not engaged to and did not conduct an examination, the objective of which would be
the expression of an opinion on AGUNSA’s internal controls. Accordingly, we do not express
such an opinion. Had we performed additional procedures, other matters might have come to our
attention that would have been reported to you.

This report is intended solely for the information and use of the NSF OIG, NSF, RPSC, and
AGUNSA and is not intended to be and should not be used by anyone other than these specified
parties.




PKF Witt Mares, PLC
Fairfax, Virginia.
May 27, 2005
                                                        - 11 -
10304 EATON PLACE, SUITE 400, FAIRFAX, VA 22030   PHONE (703) 385-8809   FAX (703) 385-8890   WEB WWW.WITTMARES.COM
                    Agencias Universales S.A. Internal Control Report
                     For the Period January 1, 2005 to May 15, 2005

                   FINDINGS AND RECOMMENDATIONS
Finding No. 1: Inadequate Internal Controls for a Large Corporation

AGUNSA lacks an overall internal control framework and methodology to manage and
oversee its financial accounting, billing, invoicing, and reporting operations at its Punta
Arenas, Chile office commensurate with its size as a large corporation. AGUNSA was
missing important elements of internal control in each of the COSO control categories of
control environment, risk assessment, control activities, information and communication
system, and monitoring to manage and oversee its financial accounting, billing, invoicing,
and reporting operations in the Punta Arenas office. See Attachments A and B for a more
detailed description of the auditors’ assessment of AGUNSA’s internal controls as they
relate to the COSO Framework.

AGUNSA experienced rapid revenue growth in its business of 74 percent between 2001
and 2004. In 2003, (the year the embezzlement was discovered) revenue increased by 54
percent and net profits increased by 56 percent over the prior year. In 2004, revenue
increased by 7 percent while net profits increased by 33 percent. In periods of rapid
growth, a company should ensure that its control environment and infrastructure are able to
support such an expansion. An internal control system based on a COSO methodology
would ensure that an internal control infrastructure is in place to properly manage the new
risks associated with AGUNSA’s rapid growth. It is possible that this rapid expansion had
a direct effect on AGUNSA’s ability to monitor compliance with their policies and
procedures in the Punta Arenas office. AGUNSA’s lack of a formal structured approach to
internal control created an environment that magnified the opportunity for fraud, such as
the embezzlement by two long time AGUNSA employees in the Punta Arenas office
illustrates.

Recommendation No. 1:
We recommend that NSF’s Director of the Division of Acquisition and Cooperative
Support ensure that RPSC directs AGUNSA to:

a) Adopt a COSO methodology to internal control over the RPSC subcontract,
b) Use the COSO methodology to serve as a guide to oversee, manage, and review the
   adequacy of its company’s internal control infrastructure,
c) Design the internal control system to accommodate AGUNSA’s expanding business
   and monitor itself for necessary control changes in periods of company growth.

Management’s comments:
“We agree on adopting the COSO methodology over the contract in our office in Punta
Arenas if it is required by RPSC or NSF.” Also refer to Attachment D – Response from
Agencias Universales S.A. (AGUNSA) for their general comments about the report
findings and recommendations.




                                          - 12 -
                  Agencias Universales S.A. Internal Control Report
                   For the Period January 1, 2005 to May 15, 2005

PKF Witt Mares response:
After taking into consideration managements’ response, our recommendation stands,
however, the report finding should not be closed until NSF determines that corrective
actions have been satisfactorily implemented.




                                       - 13 -
                    Agencias Universales S.A. Internal Control Report
                     For the Period January 1, 2005 to May 15, 2005

Finding No. 2:     Federal Acquisition Regulation Inexperience Leads to Regulatory
Violations

AGUNSA’s vendor payment procedures do not comply with the FAR requirements in its
RPSC subcontract and AGUNSA’s own cost reimbursement procedures are not followed.
These noncompliances, coupled with the collusion in the embezzlement resulted in
AGUNSA not paying its vendor invoices within 30 days of invoice receipt and resulted in
AGUNSA claiming unpaid vendor costs to RPSC. The terms and conditions of the RPSC
subcontract requires that AGUNSA follow certain FAR provisions including those related
to adhering to vendor invoice payment terms and paying vendors before billing the U.S.
Government through a contractor.

Specifically, the RPSC subcontract incorporates by reference the FAR that requires that
vendors be paid within vendor invoice terms, within 30 days of invoice submission to
AGUNSA. In addition, AGUNSA’s policy requires that vendor invoices be paid within 32
days (2 days for entry into the system and 30 days for payment once entered); however, that
policy fails to meet the 30-day vendor invoice payment requirement of the RPSC
subcontract. AGUNSA did not pay the vendor’s invoices within the number of days
required by the RPSC subcontract or its own policy. AGUNSA officials state that the
standard practice for payment of vendor invoices in Punta Arenas is 60 days or more. The
embezzlers in the Punta Arenas office delayed vendor payments a further 83 days (average)
or more as part of their embezzlement scheme. If AGUNSA management had enforced its
own policy for vendor invoice payment of 32 days, the embezzlers’ ability to successfully
execute their embezzlement scheme would have been limited.

In addition, primarily due to the embezzlement, AGUNSA submitted claims to RPSC prior
to making payments to its own vendors (in accordance with vendor terms) which is
prohibited by the FAR. This could result in AGUNSA receiving reimbursements from
RPSC for costs that it had not yet paid. Therefore, control deficiencies with the invoice
payment process at the Punta Arenas Office was not only contrary to AGUNSA’s own
payment policy but also contributed to the embezzlement scheme.

Although the RPSC subcontract with AGUNSA incorporates by reference RPSC TC-002
Raytheon Company Standard Terms and Conditions, FAR Provisions, AGUNSA
management was not aware that the subcontract incorporates certain provisions from the
FAR, (by reference) and that AGUNSA, therefore, has to comply with the FAR as part of
the subcontract. Therefore, the AGUNSA internal control system, as currently designed, is
not adequate to ensure compliance with the terms and conditions of the subcontract with
RPSC and the applicable FAR. This directly impacts AGUNSA’s ability to accumulate,
track, monitor, and bill subcontract costs to RPSC in compliance with NSF and Federal
requirements.

AGUNSA must establish, implement and enforce policies and procedures that will meet the
minimum requirements contained in the FAR. Also, periodic management reviews of its
policies and operating procedures are needed to ensure AGUNSA’s higher-level
management, RPSC, and NSF that AGUNSA has correctly recorded, paid, and billed
subcontract costs. The management reviews should also ensure that AGUNSA’s policies


                                          - 14 -
                    Agencias Universales S.A. Internal Control Report
                     For the Period January 1, 2005 to May 15, 2005

and procedures remain current and consistent with its disclosed accounting practices and its
FAR and RPSC contractual requirements.

Recommendation No. 2:

We recommend that NSF’s Director of the Division of Acquisition and Cooperative
Support ensure that RPSC directs AGUNSA to:

   a) Obtain an understanding of the applicable FAR provisions that AGUNSA is
      required to comply with under its RPSC subcontract, including the requirement to
      pay vendors within 30 days of invoice receipt and the prohibition of submitting
      claims to RPSC prior to making payments to its own vendors (in accordance with
      their terms).
   b) Revise written internal policies and procedures accordingly.
   c) Communicate the FAR requirements to appropriate management and accounting
      personnel.
   d) Design internal control procedures to monitor compliance with the procedures
      mentioned above using the COSO framework as a guide.

Management’s comments:

“Our policy is a 30 days payment we have an automatic an centralize method of payment.
Our bank allow us to pay 3 times in the month. When an invoice is recorded it takes 28
days for payment, but is has to wait the next bank payment date. The process would never
take more than 40 days. The FAR was properly communicated to the personnel. We
believe is not necessary in this point to use COSO for something so punctual.”

Also refer to Attachment D – Response from Agencias Universales S.A. (AGUNSA) for
their general comments about the report findings and recommendations.

PKF Witt Mares response:

After taking into consideration managements’ response, our recommendation stands,
however, the report finding should not be closed until NSF determines that corrective
actions have been satisfactorily implemented.




                                          - 15 -
                           Agencias Universales S.A. Internal Control Report
                            For the Period January 1, 2005 to May 15, 2005

Finding No. 3: Inadequate Board of Directors Involvement in Internal Controls

The AGUNSA Board of Directors agreed on July 30, 2003, to systematize and revitalize its
internal audit procedures but has not monitored this process to ensure its implementation.
To determine the extent to which the AGUNSA Board of Directors monitored the
revitalization of internal audit procedures, we examined three areas discussed at a) through
c) below.

       a) An extract from the AGUNSA Board of Directors’ minutes, dated July 30, 2003,
          stated “It is considered of vital importance that given the size, variety, and
          geographical dispersion of the company’s activities, internal audit procedures must
          be systematized and revitalized, requesting as a consequence that management act
          in said direction.” This directive is consistent with the “monitoring” component of
          the COSO Internal Control Framework used in establishing or evaluating internal
          controls. Under this component, an organization is supposed to monitor its internal
          control system through ongoing monitoring and separate evaluations. However, we
          requested but were not provided with documentation indicating that this task has
          been accomplished.

       b) AGUNSA’s administrative procedures manual states that “each decentralized
          agency (AGUNSA operates through 13 decentralized agencies in Chile) should be
          visited at least twice a year by the Internal Controls Unit.” However, we requested
          but were not provided with documentation that these two visits occurred in 2004 at
          the Punta Arenas office or as of the date of our fieldwork in May, 2005. Also, the
          internal audit function, as it exists, does not comply with recognized internal audit
          practices as promulgated by the Institute of Internal Auditors4 or a comparable
          professional audit organization. Specifically, AGUNSA’s Internal Controls Unit
          lacks independence, as it reports directly to the Director of Administrative
          Operations. The Internal Controls Unit is very informal in terms of defining the
          scope, frequency, methodology, and execution of internal audit work. There is very
          little documentation on the review procedures that are performed during an internal
          audit. There are no formal written reports on the areas reviewed, the findings
          identified, or the corrective actions proposed, if any.

       c) In response to the embezzlement, the XXXXXXXXXX of AGUNSA issued a list of
          corrective actions that were to be adopted to prevent future embezzlement
          opportunities and correct the associated internal control deficiencies. We requested
          but were not provided with a list of these corrective actions and, therefore, could not
          verify their existence or AGUNSA’s compliance.

AGUNSA’s monitoring of its internal control system, as currently designed, is not adequate
to ensure compliance with the terms and conditions of its subcontract with RPSC and the
FAR. This, coupled with the lack of monitoring by the AGUNSA Board, directly impacts
the reliability of AGUNSA’s system to accumulate, track, monitor, and bill subcontract
costs to RPSC. AGUNSA’s lack of a formal approach to internal control directly increases
the risk of embezzlement recurrence.

4
    Internet site is (www.theiia.org)

                                                - 16 -
                    Agencias Universales S.A. Internal Control Report
                     For the Period January 1, 2005 to May 15, 2005


Recommendation No. 3:

We recommend that NSF’s Director of the Division of Acquisition and Cooperative
Support ensure that RPSC directs AGUNSA to:

   a) Ensure that the AGUNSA Board of Directors make certain that the proposed
      corrective actions relating to compliance and control monitoring by AGUNSA’s
      Internal Control Unit are implemented and followed.
   b) Consider having the Internal Controls Unit report directly to an Audit Committee of
      the AGUNSA Board, or similar governing body, and that the Unit follow standard
      internal audit practices, such as those promulgated by the Institute of Internal
      Auditors (I.I.A.)
   c) Perform semi-annual internal audits of its various branches as stated in its corporate
      policies and procedures.

Management’s comments:

“The AGUNSA Board of directors instructs and monitoring through the CEO changes in
the computer systems and the administrative, financial and internal control procedures to
avoid this type of grafts. The actions were taken immediately, that why a follow up it was
not needed. We agreed in that the audits should be made in periodic form are and
especially in Punta Arenas in relation to RPSC will make the two audit minimum
annually.”

Also refer to Attachment D – Response from Agencias Universales S.A. (AGUNSA) for
their general comments about the report findings and recommendations.

PKF Witt Mares response:

One of the key components described in the internal control guidance published by the
Committee of Sponsoring Organizations of the Treadway Commission (COSO), the
standard for internal control for the U.S. Federal Government, is that of monitoring. Our
recommendation refers to the monitoring of, and documentation of this monitoring, of
Board of Directors decisions. The report finding should not be closed until NSF determines
that corrective actions have been satisfactorily implemented.




                                          - 17 -
                        Agencias Universales S.A. Internal Control Report
                         For the Period January 1, 2005 to May 15, 2005

Finding No. 4: Inadequate Segregation of Employee Duties

AGUNSA lacks proper segregation of employee duties by continuing to concentrate a
number of payment processing duties in the current Punta Arenas XXXXXXXXX position
that are not significantly different than those of the previous Punta Arenas XXXXXXXXX
who was removed from the position for embezzling funds. Therefore, this continuing
concentration of duties in a single individual could allow future embezzlements to occur.
The XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX. This condition enabled the XXX
XXXXX to manipulate the data entered into the central accounting system. The XXXXXX
XXXX was in collusion with his supervisor, the XXXXXXXXXXXXXXXXXXXX, who
did not ensure payments were being made appropriately to vendors. Because the
XXXXXXXXXXXXXXXXXXXXX colluded with the XXXXXXXX, the XXXXXXXX
XXXXXXXXXXXXX signatory authority did not operate as an internal control safeguard
on the proper recording and payment of invoices.

The Punta Arenas XXXXXXXXX did not exercise due diligence by co-signing checks that
were not being written in accordance with Company policy, in particular the restrictions on
the use of "open checks."

In October 2002, during the period of the embezzlement, AGUNSA changed its method of
paying certain vendors by switching to "vale vistas"5 instead of using individual checks.
This process required the local Punta Arenas office to submit a list of the vendors to be paid
by the AGUNSA central office in Valparaiso, accompanied with detailed information of
which invoices were being paid. The Company's central office would then issue one check
to the local Punta Arenas bank covering the amount of all the invoices, and the local
AGUNSA office would submit to the local bank the list of specific vendors to be paid.

This process allowed the XXXXXXXXXX and the XXXXXXXXXXXXXXXXXXXX to
continue alter the original vendor list (originally sent to the central office) and take an
altered list to the local bank. This altered list allowed them to continue to perpetrate the
embezzlement scheme, although the corporate records showed the payments had been made
to the list of original vendors.

In addition to failing to follow Company policy relating to "vale vistas" by writing "open"
checks to pay vendor invoices, the office in Punta Arenas also failed to comply with a
Company policy that required all cash flow activity, including the use of the vale vista
checks and invoices paid, and accounting records be reconciled and posted daily. In Punta
Arenas, this policy was not enforced, and there were times when transactions were left
"pending" or "not transmitted" until the month-end closing. This, too, was a factor in not
detecting the embezzlement. A vendor check would be written on a certain date. The
vendor would be notified of which invoices were being paid and would cash the check, but
the XXXXXXXX would wait until the end of the month to record the transaction, at which
5
 Vale Vista is a process by which a company check is issued (or funds transferred) to a bank from which
multiple vendors are paid.

                                                  - 18 -
                    Agencias Universales S.A. Internal Control Report
                     For the Period January 1, 2005 to May 15, 2005

time he would show more recent invoices being paid than those detailed for the vendor.
During the embezzlement period, as far as the central office was concerned, all vendor
accounts were current and in compliance with the Company's 30-day payment policy.

In 2003, after the discovery of the embezzlement, AGUNSA properly made changes in the
Company’s invoice payment policy and procedures to require that most large vendors now
be paid directly from the central office in Valparaiso by electronic payment transfers, thus
avoiding potential modification of the list of invoices to be paid at the local office level.
However, some payments are still made by check and cash at the Punta Arenas office, but
these payments are treated as exceptions and must be approved by the finance department
at Valparaiso. The checks are co-signed by the XXXXXXXXX who also reviews the bank
reconciliations. To avoid collusion in the future, the Company also instituted a new
procedure on vacation policies, which requires mandatory vacations. Whenever an
employee takes a vacation, an employee from a different office is sent to assume the
vacationing employee’s job responsibilities. As of June 2005, this procedure governing
vacations was being communicated verbally; however, it had not been incorporated into the
Human Resources Manual.

However, these measures do not address the continued concentration of duties and
unrestricted accounting system access in the XXXXXXXXX position. Poor segregation of
duties directly impacts AGUNSA’s ability to accumulate, track, monitor, and bill
subcontract costs to RPSC and limit future reoccurrences of an embezzlement. The COSO
methodology serves as a guide for an entity’s control activities that relate to adequately
designed policies and procedures that help ensure management directives are carried out.
They include a range of activities as diverse as approvals, authorizations, verifications,
reconciliations, reviews of operating performance, security of assets and segregation of
duties. Therefore, adequate segregation of duties, which are monitored and enforced, is a
required element of control activities for an entity. Properly segregating the Punta Arenas
staff duties will limit future opportunities for fraudulent acts by AGUNSA employees.

Recommendation No. 4:

We recommend that NSF’s Director of the Division of Acquisition and Cooperative
Support ensure that RPSC directs AGUNSA to:

   a) Revise Company policies as necessary to segregate the duties of the XXXXXXXX
      such that processing, recording, and payment of vendor invoices are segregated
      among different staff to perform. Ensure that vendor checks are properly prepared,
      documentation properly supports each payment, accounting records are updated
      properly, and invoices are paid promptly in accordance with AGUNSA policies and
      procedures and the FAR. The amounts and payees of the invoices received should
      be reconciled to and agreed with the amounts and payees of the checks written for
      invoice payments, the amounts and payees of the checks cashed, and the amounts
      and payees recorded in the accounting records.

   b) Monitor compliance with all Company policies and procedures, especially with
      regard to the vendor payment process.


                                           - 19 -
                   Agencias Universales S.A. Internal Control Report
                    For the Period January 1, 2005 to May 15, 2005

   c) Mitigate fraud by collusion by monitoring compliance with its new vacation policy.
      The new vacation policy currently being communicated verbally should also be
      incorporated into the Human Resources manual.

   d) Perform unannounced spot checks to ensure compliance with company policies and
      procedures.

Management’s comments:

“To assure the fulfillment of our administrative and financial policies, segregation of
functions were made. Accompanied by the change of personal, vacation policy and the
reinforcement of the internal control and the centralization of the payment of suppliers
would allow to avoid a similar situation again.”

Also refer to Attachment D – Response from Agencias Universales S.A. (AGUNSA) for
their general comments about the report findings and recommendations.

PKF Witt Mares response:

After taking into consideration managements’ response, our recommendation stands,
however, the report finding should not be closed until NSF determines that corrective
actions have been satisfactorily implemented.




                                        - 20 -
                    Agencias Universales S.A. Internal Control Report
                     For the Period January 1, 2005 to May 15, 2005

Finding No. 5: Inadequate Development and Implementation of Financial and
Administrative Policies and Procedures Results in Inadequate Internal Controls

AGUNSA has an informal process for communicating its procedures. AGUNSA does not
have an updated, complete, or cohesive set of rules or manuals containing the operational,
financial, and administrative procedures for its different functional areas and activities,
including invoice processing. AGUNSA has developed various procedure manuals over a
period of time, particularly in connection with operational activities and contract
management, but the existing financial and administrative procedure manuals are general
and incomplete. Also, while there is documentation with respect to internal controls, such
documentation is either not well communicated, not complied with, or the employees are
not trained in its use.

These deficiencies highlight an overall information and communications control weakness
at AGUNSA. The COSO methodology for an entity’s Information and Communication
control component relates to pertinent information that must be identified, captured and
communicated in a form and timeframe that enables people to carry out their
responsibilities. Information systems produce reports containing operational, financial, and
compliance-related information that make it possible to run and control the business. It
includes such aspects as information systems, channels of communication and
dissemination of information. However, AGUNSA’s financial and administrative policies
and procedures were incomplete and poorly communicated and monitored. As a result,
AGUNSA cannot ensure compliance with the terms and conditions of its subcontract with
RPSC and the applicable FAR. This directly impacts AGUNSA’s ability to accumulate,
track, monitor, and bill subcontract costs to RPSC in compliance with NSF and Federal
requirements. AGUNSA’s lack of a formal approach to internal control increases the risk
of future embezzlements.

Manuals and Procedures

AGUNSA’s procedure manuals are developed at the individual Unit Manager’s initiative
rather than as corporate policy. As a result, there is a lack of cohesiveness in the manuals.
For example, in Punta Arenas there is an operations manual for the warehouse, which was
developed by that Unit Manager; however, this operations manual is not necessarily used
anywhere else in the Company. We also noted the following concerns with the written
procedures and guidance:

   a) We were unable to establish which manuals were the most current as the various
      versions were not dated.

   b) There were no specific or detailed procedures for activities such as internal audit,
      disbursements, invoicing, cash register closing, etc.

   c) Employees carry out their tasks based on informal practices such as what has been
      done in the past, on e-mail messages that are sent by Company directors, or simply
      by following the steps provided by the financial information system.




                                           - 21 -
                    Agencias Universales S.A. Internal Control Report
                     For the Period January 1, 2005 to May 15, 2005

E-mail is the most popular form of communication at AGUNSA for circulating changes in
financial/administrative procedures. These e-mails usually originate in the central units
located at the central office. However, assimilating and implementing new procedures or
change to existing policies and procedures is the sole responsibility of the employees. The
Company relies on its employees to keep up, substitute with current versions, find, and use
the most current updated versions of those e-mail communications.
AGUNSA implemented various corrective actions following the discovery of the
embezzlement; however, it has not adequately documented those corrective actions (i.e.
internal controls) in written policies and procedures; carried out any tests of the
effectiveness of these new control policies and procedures or analyzed the risks associated
with its operations relating to the RPSC subcontract, so that any additional controls could
be effectively designed, communicated, implemented, and monitored.

Recommendation No. 5:

We recommend that NSF’s Director of the Division of Acquisition and Cooperative
Support ensure that RPSC directs AGUNSA to:

   a) Develop a comprehensive set of financial and administrative procedures (with
      regard to the RPSC subcontract) based on a control risk analysis;
   b) Specifically design internal control procedures to monitor compliance with the FAR
      and financial and administrative procedures mentioned above, using the COSO
      framework as a guide;
   c) Communicate and implement these procedures in the Punta Arenas office;
   d) Train all financial and administrative personnel on Company policies and
      procedures; and
   e) Periodically evaluate the effectiveness of its controls and analyze the risks
      associated with its operations, so that appropriate controls can be effectively
      designed (or modified) and monitored with regard to the RPSC subcontract.

Management’s comments:

“We agree on this point and the policies and the financial and administrative procedures
 and the compliance with the FAR was communicated and implemented in Punta Arenas
 office and periodically monitored.”

Also refer to Attachment D – Response from Agencias Universales S.A. (AGUNSA) for
their general comments about the report findings and recommendations.

PKF Witt Mares response:

After taking into consideration managements’ response, our recommendation stands,
however, the report finding should not be closed until NSF determines that corrective
actions have been satisfactorily implemented.




                                          - 22 -
                     Agencias Universales S.A. Internal Control Report
                      For the Period January 1, 2005 to May 15, 2005

Finding No. 6: Employees Insufficiently Trained About Internal Controls

Subsequent to the discovery of the embezzlement scheme, AGUNSA did not provide
sufficient formal training in Punta Arenas on financial and administrative procedures,
ethical behavior, conflicts of interest, internal controls, or anti-fraud procedures. Therefore,
the current internal control system is not adequate for AGUNSA to ensure compliance with
the terms and conditions of its subcontract with RPSC and the applicable FAR.
Inadequately trained employees directly impact AGUNSA’s ability to accumulate, track,
monitor, and bill subcontract costs to RPSC in compliance with NSF and Federal
requirements. AGUNSA’s lack of a formal approach to anti-fraud and internal control
related training directly increases the risk of a future embezzlement.

Subsequent to the embezzlement, AGUNSA should have used the COSO methodology to
train employees on financial and administrative procedures, the importance of internal
controls, ethical matters and fraud prevention in the Punta Arenas office. In addition, under
the COSO Framework, an organization should implement, measure and monitor the
training necessary for its employees to perform their assigned responsibilities with
competency and integrity.

However, our analysis of the educational programs presented at AGUNSA between 2003
and 2005 found that most of the educational programs were related to general matters, such
as the use of the Internet, software applications (word processors, spreadsheets, etc.),
English, etc. While there were some formal training sessions that were designed to review
modifications in administrative or operational procedures, these programs were less
frequent. Instead, AGUNSA trains its employees “on the job” with respect to
administrative and operational procedures. In this regard, it is very common for key
financial and administrative personnel to spend from six months to two years at the Finance
and Administration Department in Valparaiso before they are sent to a branch elsewhere in
Chile or abroad. However, it is not readily apparent that policies and procedures learned at
AGUNSA headquarters in Valparaiso are translated into practical application in the branch
offices.

Recommendation No. 6:

We recommend that NSF’s Director of the Division of Acquisition and Cooperative
Support ensure that RPSC direct AGUNSA to:

   a) Provide employee training on financial and administrative procedures, with a
      particular focus on risks and associated controls;
   b) Provide adequate training on ethical behavior, resolution of conflict of interests,
      internal controls, and anti-fraud procedures;
   c) Establish more detailed ethical and anti-fraud procedures as well as periodic
      reviews of these procedures; and
   d) Conduct joint working/training sessions with RPSC on subcontract management as
      it relates to administrative and financial matters.




                                            - 23 -
                    Agencias Universales S.A. Internal Control Report
                     For the Period January 1, 2005 to May 15, 2005

Management’s comments:

“We will trainee this year.”

Also refer to Attachment D – Response from Agencias Universales S.A. (AGUNSA) for
their general comments about the report findings and recommendations.

PKF Witt Mares response:

After taking into consideration managements’ response, our recommendation stands,
however, the report finding should not be closed until NSF determines that corrective
actions have been satisfactorily implemented.




                                         - 24 -
                    Agencias Universales S.A. Internal Control Report
                     For the Period January 1, 2005 to May 15, 2005

Finding No. 7: Poorly Defined Employee Duties and Performance Evaluations

AGUNSA lacks both written formal job descriptions for accounting and billing staff and a
system of regular performance evaluations. Under the COSO Framework, an organization
should implement, measure and monitor the existence of formal job descriptions.
However, many employees do not have formal job descriptions. The XXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXX told us, “formalizing job descriptions and functions in a
document could limit what the employees do.” We found that some employees in the Punta
Arenas accounting and warehouse offices have detailed written job descriptions that
include general and specific job functions but many do not. Also, AGUNSA has not
established a formal employee performance evaluation system for any of its Punta Arenas
employees. Rather, employees are given performance evaluations through unscheduled ad
hoc reviews or through assessments of departmental progress in relation to operational
indicators.

In order for AGUNSA’s policies and procedures to effectively safeguard company assets
and maintain efficient operations, employee duties must be clearly defined and employee
performance of those duties evaluated and documented on a regular basis. Also, clearly
defined employee duties help ensure proper segregation of responsibilities among
employees by delineating the employees’ duties in, for example, reviewing, approving, and
disbursing funds to pay vendor invoices. Segregating those duties is an important internal
control. Management oversight, by evaluating employee performance against clearly
defined duties is a safeguard that enhances the effectiveness of internal controls.

As a result of these weaknesses, the current internal control system is not adequate to
ensure that accounting and billing staff know and are held accountable for meeting job
performance expectations. This directly impacts AGUNSA’s ability to accumulate, track,
monitor, and bill subcontract costs to RPSC in compliance with NSF and Federal
requirements.

Recommendation No. 7:

We recommend NSF’s Director of the Division of Acquisition and Cooperative Support
ensure that RPSC directs AGUNSA to:

   a) Define personnel responsibilities and conduct formal employee performance
      evaluations for all staff involved in the administration of the RPSC subcontract,
      and
   b) Provide training that supports and relates directly to employee job duties and
      responsibilities of staff working on and monitoring the RPSC subcontract.




                                         - 25 -
                  Agencias Universales S.A. Internal Control Report
                   For the Period January 1, 2005 to May 15, 2005

Management’s comments:

“The personnel knows what their duties and responsibilities are, the company provide
training.”

Also refer to Attachment D – Response from Agencias Universales S.A. (AGUNSA) for
their general comments about the report findings and recommendations.

PKF Witt Mares response:

After taking into consideration managements’ response, our recommendation stands,
however, the report finding should not be closed until NSF determines that corrective
actions have been satisfactorily implemented.




                                       - 26 -
                    Agencias Universales S.A. Internal Control Report
                     For the Period January 1, 2005 to May 15, 2005

Finding No. 8: Need for Evaluation of Employee Assignments and/or Retraining.

The XXXXXXXXX at the Punta Arenas office remains in his current position, despite not
exercising adequate due diligence in co-signing checks associated with the embezzlement.
Failure to adequately review the checks for compliance with AGUNSA’s company policy
before co-signing checks circumvented the internal control, and indirectly benefited the
embezzlers, allowing them to convert AGUNSA funds to their own private use.

AGUNSA’s policy requires that vendor payment checks be restricted for deposit in the
payee’s bank account. The two embezzlers modified the checks so that they could be
transferred to the bearer of the check. Because one of the embezzlers also had authority to
co-sign the checks, the XXXXXXXXXXXX was AGUNSA’s final safeguard to ensure that
checks were prepared in accordance with company policy. Although the XXXXXXXXXX
was not implicated as a participant in the embezzlement, effectively performing his duties
would have mitigated the loss of approximately $157,000 to AGUNSA. The XXXXXXX
XXXXX did report the embezzlement scheme to AGUNSA management because a vendor
complained to him and not because he detected any irregularities during his oversight or
review of the checks presented to him for signature. The authority to sign and commit
AGUNSA funds for payment carries with it significant responsibilities to safeguard the
company’s assets.

Other employees had various relationships with the embezzlers beyond that of a work
colleague and remain in their current positions with the Company. These employees may
either not have known, or had a responsibility to question, issues related to the ongoing
embezzlement. These employees may have benefited indirectly (knowingly or
unknowingly) from the embezzlement.

We understand AGUNSA has interviewed these individuals in this regard.

We have no knowledge that any of these individuals should, or did, have knowledge of the
embezzlement, or whether they benefited either directly or indirectly from it. However, we
believe that a prudent person may ask for additional information based on the facts
presented to us.




                                          - 27 -
                   Agencias Universales S.A. Internal Control Report
                    For the Period January 1, 2005 to May 15, 2005

Recommendation No. 8:

We recommend that NSF’s Director of the Division of Acquisition and Cooperative
Support ensure that RPSC directs AGUNSA to:

   a) Review the Punta Arenas XXXXXXXXXXXXXXXX indirect involvement in the
      embezzlement in order to evaluate whether the XXXXXXXXXXXXX has had the
      retraining necessary to effectively discharge his control duties and continue in his
      current assignment.
   b) Ensure all Punta Arenas AGUNSA employees with check signature authority
      understand fully and properly execute their responsibilities in disbursing and
      safeguarding AGUNSA company funds.
   c) Obtain details of AGUNSA’s assessment of other individual’s direct or indirect
      involvement in the embezzlement.

Management’s comments:

“The new organization in office included a new agent, who is responsible for processing
and compliance the administrative and financial policies. attached current flowchart.”
(Attachment D) “There is not another person involved in the embezzlement.”

Also refer to Attachment D – Response from Agencias Universales S.A. (AGUNSA) for
their general comments about the report findings and recommendations.

PKF Witt Mares response:

After taking into consideration managements’ response, our recommendation stands,
however, the report finding should not be closed until NSF determines that corrective
actions have been satisfactorily implemented.




                                         - 28 -
                     Agencias Universales S.A. Internal Control Report
                      For the Period January 1, 2005 to May 15, 2005

Finding No. 9: RPSC May Have Paid for Services Not Received

AGUNSA was purchasing goods and services without RPSC XXXXXXXXXXXXXXXX
documentation, authorization and approval contrary to RPSC’s subcontract which states
that AGUNSA should require the “Review and payment of all local bills, properly
rendered, receipted, and authorized by the RPSC XXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXX, or XXXXXXXXXXXXX, when practicable.” In addition, there was limited
documentation evidencing delivery of goods or services to RPSC. Without adequate
invoice approval documentation and proof of delivery, there is a risk that payments could
be made for goods or services that were not ordered and/or delivered.

When we discussed with AGUNSA personnel the possibility of invoicing RPSC for goods
or services that might not have been provided, AGUNSA management said that RPSC
would be able to detect if such an event had occurred. When we posed the same question
to RPSC representatives, they responded that the ship’s captain or the scientists would
complain if requested goods or services were not provided. This is an external control that
should not be relied upon by AGUNSA or RPSC.

According to AGUNSA officials, certain invoices cannot have authorization from RPSC
because they are either not directly related to the vessel (laundry, garbage removal, etc.) or
are general port-related services (mooring, pilotage, tug boat, health-sanitary inspection,
etc.). Therefore, after removing these industry standard dockside service invoices from our
tests, we nevertheless found that approximately half the invoices tested, during the
embezzlement period, did not have proper RPSC XXXXXXXXXXXXXXX authorization.
The absence of these controls pose significant risks of fraud and abuse to AGUNSA and
RPSC.

Recommendation No. 9:

We recommend that NSF’s Director of the Division of Acquisition and Cooperative
Support ensure RPSC directs AGUNSA to:

   a) Establish internal control procedures to follow subcontract requirements to obtain
      proper documentation, authorization, and approval from the RPSC XXXXXXXXX
      XXXXXXXX in Punta Arenas for all NSF ship specific invoices before submitting
      them to RPSC for payment.




                                           - 29 -
                     Agencias Universales S.A. Internal Control Report
                      For the Period January 1, 2005 to May 15, 2005

Management’s comments:

“This point is not accepted, AGUNSA it never had acted against its represented, it is the
agent's duty to look after the interests of its clients. However we want it clarifies what to
related to is indicated:

- the vessel (laundry, garbage removal, etc.)

This service was request by the vessel and they had a copy of the certificate. (Attachment
D)

- general port-related services (mooring, pilotage, tug boat, health-sanitary inspection, etc.).

These services have a support in arrival and sailing report and general declaration. The
documents could allow estimate and check Port authority charges. If changes in these
procedures are needed, please let us know.”

Also refer to Attachment D – Response from Agencias Universales S.A. (AGUNSA) for
their general comments about the report findings and recommendations.

PKF Witt Mares response:

We did not find any evidence that AGUNSA paid for services that they did not receive,
however, during our discussions with AGUNSA, we did observe that certain invoices and
shipping documentation did not appear to contain appropriate authorization and/or
approval. Therefore, our recommendation to establish internal control procedures to follow
subcontract requirements to obtain proper documentation, authorization, and approval from
the RPSC XXXXXXXXXXXXXXXXX in Punta Arenas for all NSF ship specific invoices
before submitting them to RPSC for payment, stands. The report finding should not be
closed until NSF determines that corrective actions have been satisfactorily implemented.




                                            - 30 -
SUPPLEMENTARY INFORMATION
       ATTACHMENTS
                    Agencias Universales S.A. Internal Control Report
                     For the Period January 1, 2005 to May 15, 2005

                       ATTACHMENT A
           INTERNAL CONTROL ASSESSMENT SCOPE AND
                       METHODOLOGY

Our work has been carried out in accordance with Generally Accepted Government
Auditing Standards (GAGAS). Specifically, we have referred to the internal control
guidance published by the Committee of Sponsoring Organizations of the Treadway
Commission (COSO).

COSO provides a common definition of internal controls and guides in the creation,
assessment and improvement of an organization’s internal control systems.

The COSO report defines internal control as a process effected by an entity’s board of
directors, management, and other personnel, designed to provide reasonable assurance
regarding the achievement of objectives in the following categories:

   •   Effectiveness and efficiency of operations. Addresses an entity’s basic business
       objectives, including performance and profitability goals and safeguarding of
       resources;

   •   Reliability of financial reporting. Relates to the preparation of reliable financial
       statements, including interim financial statements, and selected data derived from
       such statements;

   •   Compliance with applicable laws and regulations. Deals with complying with
       those laws and regulations to which the entity is subject;

   •   A subset of these objectives is the safeguarding of assets. Internal control should
       be designed to provide reasonable assurance regarding prevention of or prompt
       detection of unauthorized acquisition, use, or disposition of an entity’s assets.

Internal control consists of five interrelated components, all of which must be present and
functioning effectively and connected to the entity’s business objectives. Our internal
control assessment of AGUNSA has included all five components, which are:

   •   Control Environment. Sets the tone of an organization, influencing the control
       consciousness of its people. It is the foundation for all other components of internal
       control, providing discipline and structure. Control environment factors include the
       integrity, ethical values and competence of the entity’s people, management
       philosophy and operating style, the way management assigns authority and
       responsibility, and organizes and develops its people, and the attention and direction
       provided by the Board of Directors;

   •   Risk Assessment. Identification and analysis of relevant risks to the achievement of
       the objectives, forming a basis for determining how the risks should be managed. A
       precondition to risk assessment is establishment of objectives, linked at different
       levels and internally consistent.
                                          - 31 -
                   Agencias Universales S.A. Internal Control Report
                    For the Period January 1, 2005 to May 15, 2005

   •   Control Activities. Policies and procedures that help ensure management directives
       are carried out. They include a range of activities as diverse as approvals,
       authorizations, verifications, reconciliations, reviews of operating performance,
       security of assets and segregation of duties;

   •   Information and Communication. Pertinent information must be identified,
       captured and communicated in a form and timeframe that enable people to carry out
       their responsibilities. Information systems produce reports, containing operational,
       financial and compliance-related information, that make it possible to run and
       control the business. It includes such aspects as information systems, channels of
       communication and dissemination of information.

   •   Monitoring. Internal control systems need to be monitored – a process that assesses
       the quality of the system’s performance over time. This is accomplished through
       ongoing monitoring activities, separate evaluations or a combination of the two.

Based on the Internal Control Planning Document agreed with NSF OIG, our fieldwork
was carried out from May 9th to May 20th, 2005 at AGUNSA Headquarters in Valparaiso,
Chile, and from May 26th to May 27th, 2005 at AGUNSA’s Office in Punta Arenas, Chile.
The fieldwork included the following steps:

   •   Gathering and Analysis of Key Information: In order to understand and become
       familiar with AGUNSA’s internal controls documentation, we reviewed financial
       management, human resources and financial systems procedures, as well as internal
       management and financial reporting, financial audit reports, contract
       documentation, annual report, job descriptions, and all other relevant background
       documentation that was made available to us, such as the XXXXX and XXX Audit
       Report, the Chilean Police’s Economic Crime Unit Report.

   •   Testing: We tested controls on transactions for year 2005 including all relevant
       procedures involved on AGUNSA’s accounting and billing processes to Raytheon
       Polar Services Company (RPSC) in compliance with NSF and Federal
       requirements.

   •   Interviews with Management and Staff: We carried out interviews with relevant
       management officials and staff (Attachment C) as part of the internal control
       assessment.




                                         - 32 -
                      Agencias Universales S.A. Internal Control Report
                       For the Period January 1, 2005 to May 15, 2005

INTERNAL CONTROL ASSESSMENT METHODOLOGY

 Components                       Subcomponents
 Control Environment              Integrity and ethical values
                                  Commitment to competence
                                  Management philosophy and operating style
                                  Board of directors/audit committee
                                  Organizational structure
                                  Human resources policies and procedures
 Risk Assessment                  Enterprise objectives
                                  Risk management
 Control Activities                Policies and procedures
                                   Document and record management
                                   Payment process
                                   Bank reconciliations
                                   Segregation of duties
                                   Control over vulnerable assets
 Information and                   Information
 Communication                     Information systems
                                   Communication
 Monitoring                       Continuous supervision
                                   External audit
                                   Internal audit

Each of the subcomponents is tied to one or more of the evaluation criteria. Thus, for
instance, the Subcomponent “Commitment to Competence,” which belongs to the Control
Environment Component, is composed of the following four evaluation criteria:

       (1) Are there formal job descriptions or any other form of describing the tasks
           related to any particular function?

       (2) Are employees provided with the training necessary to perform their assigned
           responsibilities?

       (3) Is employee competence ensured through performance evaluation?

       (4) Are the key personnel in accordance with the job description profiles?

In our report, we have evaluated AGUNSA’s internal controls using 31 criteria associated
with 20 subcomponents, which in turn are linked with the five COSO components. Our
criteria was selected to focus mostly on AGUNSA’s accounting and billing processes. (See
Attachment B - Internal Control Assessment)




                                           - 33 -
                     Agencias Universales S.A. Internal Control Report
                      For the Period January 1, 2005 to May 15, 2005

                         ATTACHMENT B
                  INTERNAL CONTROL ASSESSMENT
               COMPONENTS/SUBCOMPONENTS/FACTORS

COMPONENT 1: CONTROL ENVIRONMENT

1.1 INTEGRITY AND ETHICAL VALUES

1.1.1   Are there written communications or a Code of Conduct to document the entity’s
        values, norms, and acceptable ethical behavior, conflicts of interest, etc.? If no such
        written document exists, does the organizational culture emphasize the importance
        of integrity and ethical behavior through management actions, verbal
        communications, group sessions or personal interviews?

PKF Witt Mares’ Comments: AGUNSA does not have a Code of Conduct. It does have an
Internal Regulation on Security, Hygiene, and Order which contains some provisions on
ethical behavior. During our assessment, we observed the importance of ethical behavior
and trust placed on the management and key employees in the Company. We also observed
a lack of control activities in this regard. There are still several employees that were
indirectly involved in the embezzlement at Punta Arenas that are still employed with the
Company.

1.1.2   Are the written communications or Code of Conduct communicated adequately to
        the staff and are they in use?

PKF Witt Mares’ Comments: The Internal Regulation on Security, Hygiene, and Order is
given to each employee at the time they join the Company. However, no further training or
ethical awareness programs are provided. No action in this regard was taken with the Punta
Arenas employees after the embezzlement.

1.2 COMMITMENT TO COMPETENCE

1.2.1   Are there formal job descriptions or any other form of describing the task related to
        any particular function?

PKF Witt Mares’ Comments: Few areas have formal job or task descriptions. There is no
systematic approach to documenting procedures. The employees at the warehouse in Punta
Arenas who deal with the Raytheon contract are among the few who do have a job
description manual.

1.2.2   Are employees provided with the training necessary to perform their assigned
        responsibilities?

PKF Witt Mares’ Comments: Improvements could be made through a systematic approach
to training based on needs identification and career development. After the embezzlement,
the Company should have implemented Company-wide training programs on ethical
behavior and administrative and financial procedures, especially in the Punta Arenas office.


                                            - 34 -
                     Agencias Universales S.A. Internal Control Report
                      For the Period January 1, 2005 to May 15, 2005


1.2.3   Is employee competence ensured through performance evaluation?

PKF Witt Mares’ Comments: There is no formal performance evaluation system. From
time to time, AGUNSA’s employees are evaluated against operational indicators.

1.2.4   Are the key personnel in accordance with the job description profiles?

PKF Witt Mares’ Comments: As mentioned in point 1.2.1 above, many areas or positions
do not have formal job description profiles.

1.3 MANAGEMENT PHILOSOPHY AND OPERATING STYLE

1.3.1   Is there personnel turnover in key functions, e.g., operating, accounting, data
        processing, internal audit?

PKF Witt Mares’ Comments: AGUNSA is a company with low personnel turnover. Many
of the people interviewed in key positions have been with AGUNSA for more than ten
years.

1.3.2   Level of importance and use given by management to financial and operational
        information?

PKF Witt Mares’ Comments: AGUNSA produces complete and detailed monthly and
quarterly financial and management reports that allow for monitoring of key business
indicators.

1.3.3   Frequency of interaction between senior management and operating management,
        particularly when operating from geographically removed locations. Delegation
        levels.

PKF Witt Mares’ Comments: AGUNSA is highly decentralized. Each of the 13 agencies
has its own management structure, where the General Manager for that Agency has the
authority to make decisions on day-to-day operations. All agencies report to the Director of
Agencies and Port Logistics.

1.3.4   How are strategic and operational plans formulated, communicated, and monitored?

PKF Witt Mares’ Comments: Within the Administrative Operations Division, each area
formulated its proposed activities and goals for the year, which are shared and adjusted by
the Director of Administrative Operations. The Director monitors progress on each of the
proposed activities by area using a spreadsheet containing: area, indicator, task, resources,
responsibility, deadline, degree of completion, etc.

1.3.5   Do senior managers exercise adequate leadership?

PKF Witt Mares’ Comments: The executive staff (or principal management team) is
composed of seven individuals who have been with AGUNSA for several years. The

                                           - 35 -
                     Agencias Universales S.A. Internal Control Report
                      For the Period January 1, 2005 to May 15, 2005

executive staff has failed to establish a formal control structure, has failed to implement an
effective internal audit function, and has failed to provide formal ethical and fraud training.

1.4 BOARD OF DIRECTORS/AUDIT COMMITTEE

1.4.1   Is there a Board of Directors, independent from management, that provides
        oversight on the Company’s results and the internal controls? Is there an audit
        committee supervising key financial activities or results?

PKF Witt Mares’ Comments: The Board of Directors is composed of seven directors, none
of whom are on the executive staff. A Director’s Committee was set up in 2002, in
accordance with Chilean law. This Committee is responsible for the supervision of
financial activities, external auditing, compensation, etc. Following the embezzlement at
the Punta Arenas office, the Board met on July 30, 2003, and agreed to strengthen and
systematize AGUNSA’s internal controls. However, we were not provided with any
evidence that the Board is monitoring internal controls.

1.5 ORGANIZATIONAL STRUCTURE

1.5.1   Appropriateness of the entity’s organizational structure, and its ability to provide the
        necessary information flow to manage its activities. Adequacy of definition of key
        managers’ responsibilities, and their understanding of these responsibilities.

PKF Witt Mares’ Comments: AGUNSA operates a financial administration computerized
system which connects the operations of all agencies to headquarters. This facilitates the
supervision of administrative and financial operations carried out from the central units
(finance, internal controls, accounts receivable, accounting). Each agency is managed by a
general manager (agent) who has operations and administrative/finance staff under his
authority. Each general manager (or agent) reports to the Director of Agencies and Port
Logistics, who is based in Santiago. We found that responsibilities and tasks are not
always clearly defined.

1.6 HUMAN RESOURCES POLICES AND PROCEDURES

1.6.1   Extent to which policies and procedures for hiring, training, promoting, and
        compensating employees are in place.

PKF Witt Mares’ Comments: AGUNSA’s Human Resources Policies and Procedures
Manual refers in a general manner to how to hire, train, promote, and compensate the
employees.




                                            - 36 -
                     Agencias Universales S.A. Internal Control Report
                      For the Period January 1, 2005 to May 15, 2005

COMPONENT 2: RISK ASSESSMENT
2.1 ENTERPRISE OBJECTIVES

2.1.1   How are strategic and operation plans formulated, communicated, and monitored?

PKF Witt Mares’ Comments:           AGUNSA does not have a formal enterprise risk
management methodology.

2.2 RISK MANAGEMENT

2.2.1   Thoroughness and relevance of the risk analysis process, including risk
        identification and estimating the significance of risks, assessing the likelihood of
        their occurring and determining needed actions.

PKF Witt Mares’ Comments: AGUNSA has not established a systematic manner of
analyzing risks, including the identification and evaluation of the significance or likelihood
of their occurrence. This means that AGUNSA does not have a risk management system in
place that would increase the possibilities of achieving the activity- level and company-
level objectives.




                                           - 37 -
                     Agencias Universales S.A. Internal Control Report
                      For the Period January 1, 2005 to May 15, 2005

COMPONENT 3: CONTROL ACTIVITIES
3.1 POLICIES AND PROCEDURES

3.1.1   Existence of appropriate polices and procedures necessary with respect to each of
        the entity’s activities.

PKF Witt Mares’ Comments: AGUNSA lacks a systematic approach toward documenting
its procedures. There are many operational procedures manuals, but most of them have
been developed at a Unit Manager’s own initiative. There is no clear Company policy for
development, maintenance, or dissemination of overall procedures.                      The
financial/administrative related procedures manuals are too general and incomplete. Many
of the new procedures or updates related to payments, invoicing, accounting, etc., are sent
only by email. There are no procedures related to internal auditing.

3.2 DOCUMENTATION AND RECORD MANAGEMENT

PKF Witt Mares’ Comments: We observed adequate archive and documentation
management systems at both AGUNSA’s headquarters and the Punta Arenas office.

3.3 PAYMENT PROCESS

3.3.1   Verify whether vendor payments were done in accordance with RPSC subcontract
        terms and conditions.

PKF Witt Mares’ Comments: Vendor payments are not done in accordance with
subcontract terms and conditions.

3.3.2   Verify invoice documentation, authorization, and approval.

PKF Witt Mares’ Comments: Vendor invoices are not always appropriately documented,
authorized, and approved.

3.3.3   Verify the accuracy and timeliness recording of transactions.

PKF Witt Mares’ Comments: Transactions are accurately but not timely recorded.

3.4 BANK RECONCILIATION

3.4.1   Verify all monthly bank reconciliations for 2005 and that they are prepared and
        authorized adequately.

PKF Witt Mares’ Comments: At Punta Arenas, bank reconciliations are prepared by the
XXXXXXXXXXXXX, and reviewed and approved by the XXXXXXXXX. They are sent
monthly to the central office in Valparaiso.




                                           - 38 -
                     Agencias Universales S.A. Internal Control Report
                      For the Period January 1, 2005 to May 15, 2005

3.5 SEGREGATION OF DUTIES

3.5.1   Verify that there is an adequate segregation of duties.

PKF Witt Mares’ Comments: For a company the size of AGUNSA, the segregation of
duties at Punta Arenas is inadequate. The XXXXXXXXXX continues to have access to the
accounting system’s accounts payable module and cash disbursements.

3.6 CONTROL OVER VULNERABLE ASSETS

3.6.1   Verify controls implemented to safeguard its assets.

PKF Witt Mares’ Comments: The controls to safeguard assets in Punta Arenas continues to
be inadequate. For example, cash payments (i.e. currency) continue to be made by the
XXXXXXXXXX with minimal management oversight.




                                            - 39 -
                    Agencias Universales S.A. Internal Control Report
                     For the Period January 1, 2005 to May 15, 2005

COMPONENT 4: INFORMATION AND COMMUNICATION
4.1 INFORMATION

4.1.1   Verify that accounting records are updated and duly authorized.

PKF Witt Mares’ Comments: Accounting records are not always duly authorized.

4.1.2   Adequacy of obtaining external and internal information, and provide management
        with necessary reports on the entity’s performance relative to establish objectives.

PKF Witt Mares Comments: The XXXXXXXXXXXXXXXXXXXXXXXX did not have
knowledge of FARs. Following applicable FAR regulations was an established objective
of the contract with RPSC.

4.2 INFORMATION SYSTEMS

4.2.1   Adequacy of the accounting system to provide updated, secure, accurate, and
        complete financial information.

PKF Witt Mares’ Comments: Not adequate

4.3 COMMUNICATION

4.3.1   Adequacy of communication across the organization and the completeness and
        timeliness of information and its sufficiency to enable people to discharge their
        responsibilities effectively.

PKF Witt Mares’ Comments: The XXXXXXXXXXXXXXXXXXXXXXX did not know
about the FAR, and therefore could not communicate FAR requirements to the staff.




                                          - 40 -
                    Agencias Universales S.A. Internal Control Report
                     For the Period January 1, 2005 to May 15, 2005

COMPONENT 5: MONITORING
5.1 CONTINUOUS SUPERVISION

5.1.1   Are management and process indicators adequately monitored by key personnel?

PKF Witt Mares’ Comments: The Board of Directors has not monitored the internal
control measures it promulgated after the embezzlement at Punta Arenas.

5.2 EXTERNAL AUDITING

5.2.1   External Audits

PKF Witt Mares’ Comments: AGUNSA’s financial statements have been audited quarterly
and annually by Ernst & Young since 2004, after many years with
PriceWaterhouseCoopers. The reasons given for the change was cost and for a change.

5.3 INTERNAL AUDITING

5.3.1   Internal Auditing

PKF Witt Mares Comments: AGUNSA has a specific mandate from its Board of Directors
to improve and systematize its internal controls. This mandate has been effectively
ignored. At the time of our analysis, AGUNSA’s internal audit procedures had not been
systematized nor revitalized. AGUNSA lacks a formal approach to internal control, which
impacts directly on the risk of embezzlement recurrence. AGUNSA’s Internal Controls
Unit is very informal in terms of defining the scope, frequency, methodology, and
execution of the internal audit work. There is very little documentation of the review
activity since there are no formal written reports of what has been reviewed, what the
findings were, and what actions will be taken, by whom, and when. No specific testing is
conducted in order to verify compliance with specific controls or key procedures.
AGUNSA does not have a monitoring system in place to check the status of
implementation of corrective actions identified during previous reviews.




                                         - 41 -
                  Agencias Universales S.A. Internal Control Report
                   For the Period January 1, 2005 to May 15, 2005

                            ATTACHMENT C
                         LIST OF INTERVIEWEES
We conducted interviews with the following AGUNSA personnel:

   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

We also interviewed the following non-AGUNSA personnel:

   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   •   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX




                                       - 42 -
                     Agencias Universales S.A. Internal Control Report
                      For the Period January 1, 2005 to May 15, 2005

                    ATTACHMENT D
    RESPONSE FROM AGENCIAS UNIVERSALES S.A. (AGUNSA)
From: XXXXXXXXXXXXX [mailto:XXXXXXXXXXXXXXXXX]
Sent: Thursday, March 15, 2007 6:30 PM
To: XXXXXXXXXXXXX
Cc: dcureton@nsf.gov;XXXXXXXXXXXXXXXXXXXXXXXX
Subject: RE: Internal control and Embezzlement report

XXXX

Please find enclosed our comments about yours reports

Regards
XXXXXXXXXXXXXX

PKF Witt Mares, PLC
FAIRFAX, Virginia
Att: XXXXXXXXXXXXXX, ACA, CGFM, CPA, CFE
XXXXXXXXXXXXXX

On Monday March 5, 2007, we received by email two reports prepared by PKF UIT Mares
for NSF: Internal Control Report and Embezzlement Report. Both reports respectively
cover the fraud happened in our signature in Punta Arenas during the period of 2002 and
first six months of 2003, just like the state of our internal controls to the date of the
investigation made by PKF Witt Mares between March and May 2005. PKF Witt Mares
has giving us until March 16th, 2007 to make commentaries about both reports, if we want
those commentaries added to the reports.

Do to the short time given to answer, the long period passed between the fraud and the
investigation, and the fact that in our opinion the most relevant observations made in the
reports had already surpassed, we now proceed to make a General Statement about the case
covered by the reports:

   1. Agunsa is committed on providing outstanding quality services to NSF throughout
      its contract with Raytheon. That is how is been done uninterruptedly from the
      beginning of the contract in the year XXXX until today. Throughout the period of
      the contract, it had done the necessary adjustments to the operative and
      administrative procedures with the intention of giving a better service, always-
      previous agreement with Raytheon.

   2. Agunsa is proud of promoting transparency as one of its fundamental values. From
      the moment the fraud was discovered by us, we immediately informed Raytheon
      about the facts, taking the necessary measures: to restitute the funds to all the
      defrauded parts, to dismiss and to process the people responsible for the fraud, and
      to correct the possible operative and administrative faults. To this date we can
      confirm that :




                                           - 43 -
                   Agencias Universales S.A. Internal Control Report
                    For the Period January 1, 2005 to May 15, 2005

     -      Just as it is indicate in the report, Independent accountants review report in the
            actual revision indeed of the amounts only involved $7.200 were related to
            the RPSC and they were not affected
     -      Additionally this is effective it was never incurred in a lost one economic
            neither NSF stops neither RPSC stops
     -      All the defrauded parts indeed were restituting from the funds owed
            respectively.
     -      The responsible employees were fired and Agunsa filed a legal complain
            against them. These employees have done provisional jail time, failed against
            them recently, being in an appeal process. Our lawyers keep working in the
            case until they obtain the maximum possible pains for the responsible.
     -      Since the discovery of the fraud, we have implemented numerous measures
            to fortify our internal controls and to try to prevent that an incident of this type
            happens in our firm again.


     The main measures taken include:

     i.      Complete reorganization of the Punta Arenas Agency. Flowchart attached.
     ii.     The different activities properly separate operative and administrative
             functions.
     iii.    Greater supervision and pursuit on behalf of the central office by the internal
             audit unit, finances department and accounting department. This includes the
             centralized control of payments, revision of the registration of the invoices
             and their cost and their payment.
     iv.     Clear definition of procedures and employee duties.

3. Although we did not share some precise conclusions of the reports, in general we
   agree with them.

   We agree in the way you describe how of the fraud was made, describing in detail
   how it was operated to commit the fraud and the amount of it (embezzlement
   report).

   In the other report (internal control report), a series of weaknesses of internal
   controls are indicated, so are their respective recommendations for the improvement
   of them. We appreciate those recommendations, most of which have already been
   implemented.

   However, we cannot accept the points 3 and 9 indicated in the internal controls
   report.

   The points 3 indicate that the directors did not make the supervision of the changes
   in the systems and procedures. That is not correct; the instruction was given and
   completed immediately, that why it was not needed another action by the board.




                                           - 44 -
                    Agencias Universales S.A. Internal Control Report
                     For the Period January 1, 2005 to May 15, 2005

       The point 9 neither are acceptable since Agunsa as Agent has a primordial duty we
       should be diligent, look after the interests of all our represented. AGUNSA has
       never charged a non-received service, the point it should not been put in the report
       and it is not acceptable.

   4. To finish, we want to declare that this fraud was a very isolated event, unique in the
      history of our company. Collusion of two key employees and with many years
      working for Agunsa was one of the main causes by which we didn’t identify the
      problem previously, managing to elude the internal controls of the company. This
      case improves our internal control, and allows us to improve our procedures.

We hope that this incident had clarified, and reiterate to NSF our commitment with the
quality and the transparency, and we are open to continue collaborating with the intention
of providing the best possible service.

Our best regards,

XXXXXXXXXXXXXX, AGUNSA




                                          - 45 -
                   Agencias Universales S.A. Internal Control Report
                    For the Period January 1, 2005 to May 15, 2005




            General organization for Raytheon Contract
                              MANAGING DIRECTOR

                               XXXXXXXXXXXXXXX
                                                                   ADMINISTRATION
                                                                   VICE PRESIDENT
   ASSISTANT                                                      XXXXXXXXXXXXXXX
                                VICE PRESIDENT
XXXXXXXXXXXXXXX                     AGENCY
                              AND PORT LOGISTICS
                                   DIVISION
                               XXXXXXXXXXXXXXX
   RAYTHEON
  COORDINATOR
XXXXXXXXXXXXXXX
                                PUNTA ARENAS
                               BRANCH MANAGER

                               XXXXXXXXXXXXXXX




 ADMINISTRATION
      HEAD                                                             WAREHOUSE
                                  OPERATIONS
XXXXXXXXXXXXXXX                    MANAGER                            MANAGER
                               XXXXXXXXXXXXXXX                    XXXXXXXXXXXXXXX


 ADMINISTRATION                                                    ADMINISTRATIVE
INVOICE REGISTRY               STEVEDORING AND                    XXXXXXXXXXXXXXX
XXXXXXXXXXXXXXX                 TRANSSHIPPING
                               XXXXXXXXXXXXXXX
                                                                   ADMINISTRATIVE
                                                                  XXXXXXXXXXXXXXX
 ADMINISTRATION
    CASHIER                     HUSBANDING AND
XXXXXXXXXXXXXXX                PORT OPERATIONS                     ADMINISTRATIVE
                               XXXXXXXXXXXXXXX                    XXXXXXXXXXXXXXX


                                                                   ADMINISTRATIVE
                                HUSBANDING AND                    XXXXXXXXXXXXXXX
                               PORT OPERATIONS
                               XXXXXXXXXXXXXXX
                                                                     WAREHOUSE
                                                                      WORKER
                                                                  XXXXXXXXXXXXXXX


                                        - 46 -
Agencias Universales S.A. Internal Control Report
 For the Period January 1, 2005 to May 15, 2005




                     - 47 -
Agencias Universales S.A. Internal Control Report
 For the Period January 1, 2005 to May 15, 2005




                     - 48 -
Agencias Universales S.A. Internal Control Report
 For the Period January 1, 2005 to May 15, 2005




                     - 49 -
